         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Project Delays Prevent
       EPA from Implementing an
       Agency-wide Information Security
       Vulnerability Management Program

       Report No. 09-P-0240

       September 21, 2009
Report Contributors:                           Rudolph M. Brevard
                                               Charles M. Dade
                                               Jefferson Gilkeson
                                               Teresa Richardson
                                               Cory Costango
                                               Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
BRAINS       Billing and Reimbursable Accounting Network System
EPA          U.S. Environmental Protection Agency
IT           Information Technology
mLINQS       Relocation Expense Management System
NIST         National Institute of Standards and Technology
NTSD         National Technology Services Division
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OEI          Office of Environmental Information
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&Ms       Plans of Action and Milestones
VMP          Vulnerability Management Program
                       U.S. Environmental Protection Agency                                                  09-P-0240
                                                                                                     September 21, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review             Project Delays Prevent EPA from Implementing
The Office of Inspector            an Agency-wide Information Security
General (OIG) sought to            Vulnerability Management Program
determine (1) the status of
corrective actions related to       What We Found
agreed-to recommendations
for selected information           EPA implemented 56 percent (15 of 27) of the information security audit
security audit reports, and
                                   recommendations we reviewed. EPA’s lack of progress on four key audit
(2) to what extent the U.S.
Environmental Protection           recommendations we made in 2004 and 2005 inhibits EPA from providing an
Agency (EPA) program               Agency-wide process for security monitoring of its computer network. EPA has
offices evaluated whether          not established an Agency-wide network security monitoring program because
corrective actions taken           EPA did not take alternative action when this project ran into significant delays.
resolved identified                By not performing this critical function, EPA management lacked information
weaknesses.                        necessary to respond to known threats against EPA’s network and to mitigate
                                   vulnerabilities before they can be exploited.
Background
                                   EPA offices do not regularly evaluate the effectiveness of actions taken to correct
Office of Management and           identified deficiencies, as required by OMB Circular A-123. EPA is updating its
Budget (OMB) Circular              audit management and oversight policies; we provided suggestions for
A-123 requires that EPA            strengthening them.
managers take timely and
effective action to correct
deficiencies identified by a        What We Recommend
variety of sources, such as
OIG audits. OMB Circular           We recommend that the Director of the Office of Technology Operations and
A-123 also requires                Planning, within the Office of Environmental Information:
management to show that
corrective actions taken             •   Create Plans of Action and Milestones for each unimplemented audit
achieve the desired results.             recommendation listed in Appendix B.
EPA Manual 2750 and EPA
Order 1000.24 outline                •   Update EPA’s Management Audit Tracking System to show the status of
management’s responsibility              each unimplemented audit recommendation listed in Appendix B.
for following up on OIG              •   Provide EPA program and regional offices with an alternative solution for
recommendations.                         vulnerability management, including establishing a centralized oversight
                                         process to ensure that EPA program and regional offices (a) regularly test
For further information, contact         their computer networks for vulnerabilities, and (b) maintain files
our Office of Congressional,             documenting the mitigation of detected vulnerabilities.
Public Affairs and Management
at (202) 566-2391.                   •   Establish a workgroup of program and regional EPA information
                                         technology staff to solicit input on training needs and facilitate rolling out
To view the full report,                 the Agency-wide vulnerability management program.
click on the following link:
                                     •   Issue an updated memorandum discussing guidance and requirements.
www.epa.gov/oig/reports/2009/
20090921-09-P-0240.pdf
                                   The Agency agreed with all of our findings and recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 21, 2009

MEMORANDUM

SUBJECT:               Project Delays Prevent EPA from Implementing an Agency-wide
                       Information Security Vulnerability Management Program
                       Report No. 09-P-0240


FROM:                  Rudolph M. Brevard
                       Director, Information Resources Management Assessments

TO:                    Linda A. Travers
                       Acting Assistant Administrator and Chief Information Officer
                       Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $475,431.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0893
or brevard.rudy@epa.gov; or Charles M. Dade, Project Manager, at 202-566-2575 or
dade.chuck@epa.gov.
Project Delays Prevent EPA from Implementing an Agency-wide                                                                    09-P-0240
Information Security Vulnerability Management Program



                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Noteworthy Achievements .........................................................................................                  1

   Scope and Methodology.............................................................................................                 2

   Other Reporting Matters.............................................................................................               2

   Results of Review .......................................................................................................          3

           Lack of a Vulnerability Management Tool Inhibits EPA’s Ability to
           Continuously Monitor Its Network Resources ......................................................                         3

           Vulnerability Management Project Needs an Interim Solution and
           Stakeholder Involvement......................................................................................              4

   Recommendations ......................................................................................................             5

   Agency Comments and OIG Evaluation ...................................................................                            6

   Status of Recommendations and Potential Monetary Benefits..............................                                           7



Appendices
   A       Status of Agreed-to Recommendations...........................................................                             8

   B       Status of Unimplemented Recommendations.................................................                                  9

   C       Agency Response to Draft Audit Report..........................................................                           17

   D       Distribution .........................................................................................................    19
                                                                                         09-P-0240


Purpose
We sought to evaluate the implementation and effectiveness of the Agency’s corrective actions
for prior information security audit recommendations.

Background
Implementing corrective actions to resolve issues is essential to improving the efficiency and
effectiveness of U.S. Environmental Protection Agency (EPA) operations. Office of
Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal
Control, requires that managers take timely and effective action to correct issues identified by a
variety of sources. Office of Inspector General (OIG) audit reports represent one such source.
OMB Circular A-123 also requires management to show that corrective actions taken achieve the
desired results. It also specifies that the results achieved should be documented in writing.
Further, supporting documentation should be available for review. OMB Circular A-123 states
that correcting issues is an integral part of management accountability and must be considered a
priority by the Agency.

EPA has policies to guide managers when implementing audit recommendations. Specifically,
EPA Manual 2750, EPA Audit Management Process, provides timeframes for audit resolution.
It also requires that EPA action officials create systems to ensure that recommendations are
implemented. EPA Order 1000.24, Management Integrity, states that weaknesses should be
corrected at the organizational level closest to the problem. Further, it states that weaknesses
should be dealt with as soon as possible after being identified.

We chose four audit reports to determine whether the Agency has taken action to correct
information security weaknesses identified in each of them (see Table 1).

Table 1: Prior Audits Reviewed Regarding Information Security Weaknesses
 Report No.            Report Title                                            Date
 2004-P-00013          EPA’s Administration of Network Firewalls Needs         March 31, 2004
                       Improvement
 2005-P-00011          Security Configuration and Monitoring of EPA’s Remote   March 22, 2005
                       Access Methods Need Improvement
 2007-P-00007          EPA Could Improve Processes for Managing Contractor     January 11, 2007
                       Systems and Reporting Incidents
 08-1-0032             Audit of EPA’s Fiscal 2007 and 2006 (Restated)          November 15, 2007
                       Consolidated Financial Statements (only reviewed
                       recommendations made to improve information security)
Source: OIG analysis


Noteworthy Achievements
EPA has taken steps to strengthen network security by implementing an appliance-based firewall
server that meets an industry standard architecture. EPA also updated its incident-reporting
directive to include new roles, responsibilities, and standards for centralized incident reporting.


                                                    1
                                                                                           09-P-0240


Scope and Methodology
We performed our audit from January 2008 to June 2009. We performed this audit in accordance
with generally accepted government auditing standards. These standards require that we plan
and perform the audit to obtain sufficient and appropriate evidence. The evidence is to provide a
reasonable basis for our findings and conclusions. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions.

We compared EPA’s written assertions of the status of agreed-to report recommendations with
documentary support of the actions EPA took. We also spoke with EPA and contractor staff in
the Office of Environmental Information (OEI) and the Office of Administration and Resources
Management (OARM) responsible for implementing and overseeing actions to address the
related audit recommendations. We identified actions EPA still needed to take to fully satisfy
each recommendation.

We spoke with EPA and contractor staff in the Office of Air and Radiation, Office of Research
and Development, OARM, and EPA Regions 4 and 5. We asked about system control
monitoring practices of Web-Mail-enabled servers. We asked about practices, methods, and
tools these sites use to detect and protect their networks against vulnerabilities. During visits to
EPA regional offices for Regions 4 and 5, we performed vulnerability tests on selected
application servers that allow remote access to EPA’s electronic mail system. We provided the
test results to the regional staff for resolution. We spoke with OEI and OARM audit follow-up
coordinators, as well as EPA line staff who implement corrective actions. These individuals
determine whether their offices have processes in place to evaluate the effectiveness of those
actions.

Other Reporting Matters
During preliminary research, we issued a memorandum to EPA’s Chief Financial Officer on the
status of actions taken to correct information security weaknesses at the Cincinnati Finance
Center. The Office of the Chief Financial Officer (OCFO) took ample steps to correct material
weaknesses in physical access and environmental controls at the Cincinnati Finance Center.
However, OCFO still needed to do more work to document and test security controls over the
two critical applications at the finance center. The OIG reviewed EPA’s progress in completing
these remaining recommendations during the Fiscal Year 2008 financial statement audit. In
examining that audit, we found that the Agency made significant progress in completing the
agreed-to corrective actions, but it still needs to finalize the independent reviews of the two
financial applications and update the applications’ security plans. In addition, the Agency needs
to test the newly approved contingency plans for these two applications.

Also during preliminary research, we provided OCFO with written comments directing it to
strengthen EPA Manual 2750 and EPA Order 1000.24. We found that EPA needed to update
EPA Manual 2750 to more clearly assign responsibility for ensuring corrective actions are
effective and implemented in a timely manner, as required by OMB Circular A-123. We found
that internal controls for overseeing corrective actions defined in EPA Order 1000.24 needed
updating to specify something to this effect: “A determination that a weakness has been


                                                  2
                                                                                        09-P-0240


corrected is made only when management demonstrates that the corrective action taken
effectively resolved the identified weakness.”

Appendix A provides the status of agreed-upon recommendations for the four reports we
reviewed. Appendix B provides information on all open agreed-to recommendations that still
require EPA management action to complete.

Results of Review
EPA made progress in implementing many of the agreed-upon audit recommendations.
However, more management emphasis is needed to complete a key project that would provide
EPA offices with the necessary tools to continuously monitor their network resources. In
particular, since 2005, EPA has attempted to implement a commercial off-the-shelf network
vulnerability tool. This tool has the capability to identify and correct commonly known security
weaknesses. However, project delays have thwarted EPA’s ability to move the project beyond
the pilot stage. As a result, EPA regional and program offices are inconsistent in routinely
monitoring their networks for common vulnerabilities. Offices that do routinely monitor their
networks for common vulnerabilities use inconsistent methods.

Lack of a Vulnerability Management Tool Inhibits EPA’s Ability to
Continuously Monitor Its Network Resources

EPA has not established an Agency-wide security-monitoring program for its computer network.
Significant delays have occurred in completing the information technology (IT) project related to
this effort. In our 2004 audit of EPA’s network firewall and our 2005 audit of remote access
methods, we recommended that EPA:

   •   Modify the network vulnerability assessment methodology to include scanning of all
       firewall components.

   •   Develop and implement a security-monitoring program that includes testing all servers,
       and require all system administrators to register their servers with the National
       Technology Services Division and participate in the security-monitoring program.

   •   Expand the Agency’s security-monitoring program to include using a variety of network
       vulnerability scanning tools to monitor registered servers.

   •   Establish and implement a process to ensure program and regional offices conduct
       regular security monitoring that includes vulnerability scanning.

Completing these recommendations called for EPA to implement a vulnerability management
program (VMP). In July 2005, EPA began to establish the program. Yet, more than 3 years
later, EPA is still evaluating a vulnerability management tool. The Research Triangle Park
campus and an EPA region served as the two pilot sites for testing the selected tool. OEI staff
mentioned that it is necessary to automate both the vulnerability detection and remediation
processes before rolling out the vulnerability management tool for EPA locations to use.


                                                3
                                                                                        09-P-0240


Automating only the detection process would overwhelm EPA IT security staff because they
would have to manually remediate vulnerabilities. We agree with the Agency that remediating
vulnerabilities would initially increase the workload of EPA IT security staff. However, this
increase in workload would decrease over time once the Agency becomes more familiar with the
vulnerability management tool. We believe this short-term increase in workload would put EPA
in a better position to more quickly remediate high risk vulnerabilities and provide better
protection of critical network resources once a vulnerability remediation process is in place.
National Institute of Standards and Technology (NIST) Special Publication 800-123, Guide to
General Server Security, states that scanning should occur on a weekly to monthly basis. NIST
stresses that this ongoing scanning is extremely important for mitigating vulnerabilities as soon
as possible to prevent vulnerabilities from being discovered and exploited.

Vulnerability Management Project Needs an Interim Solution and
Stakeholder Involvement

As OEI progressed with the project, automating the remediation process became increasingly
difficult. With the exception of common network services, EPA operates a decentralized managed
network. Hardware and software component configurations vary by EPA location. Calibrating a
vulnerability management tool that can remediate vulnerabilities on a variety of hardware and
software configurations across EPA’s decentralized network presents a major challenge. As such,
providing an interim solution to identify vulnerabilities until an automated solution is available
would provide EPA offices with:

    •   A consistent approach to monitoring their networks continuously.
    •   A means to provide feedback to help configure the automated remediation component of
        the VMP.
    •   A means to transition to new vulnerability management components when they become
        available.

Further, establishing a formal centralized oversight structure would help ensure that management
has in place a repeatable and documented practice. This practice would provide much needed
consistency and structure to network vulnerability testing and remediation. However, EPA did
not provide offices with an interim solution for conducting continuous monitoring of their
network resources. During our visits to five EPA offices, we confirmed that they do not
regularly and consistently test their networks for vulnerabilities.

We asked employees involved in the project about this and other issues that were delaying the
project’s completion. We requested information on actions taken by EPA to address these
issues. We further asked for the planned project completion date, project budget data, and status
of key milestones. However, as of August 6, 2009, EPA management had not provided the
information related to our request.

In addition, during interviews with EPA employees involved in the project, it came to our
attention that conditions existed that suggest management could have taken more steps to prepare
stakeholders for the new VMP. For example, the Project Manager indicated that EPA
management did not establish a workgroup composed of key stakeholders from the various EPA



                                                4
                                                                                          09-P-0240


programs and regional offices. Also, IT security personnel who were involved in the pilot
indicated they would need to receive additional training to ease the implementation of the
vulnerability management program associated with this project.

As of August 6, 2009, EPA provided a partial work plan, which included only the pilot phase of
the project, to implement an Agency-wide VMP. A review of this work plan shows that EPA
planned to complete the pilot phase of this project in February 2009. Nevertheless, the work
plan does not provide information on when EPA plans to have an Agency-wide VMP in place.
As of August 6, 2009, EPA did not provide information on the steps it took to address the delays
in implementing the VMP.

As a result of our audit, OEI issued a memorandum on August 3, 2009, to remind applicable
Agency personnel of their vulnerability scanning/remediation responsibilities and to point them
to available resources to assist in fulfilling these responsibilities. However, the information and
documentation referenced within the memorandum needs to be revised to reflect the latest
revision of NIST Special Publication 800-53, as well as the latest minimum standard for time
between the periodic vulnerability scanning/remediation. The memorandum indicated that the
time between periodic vulnerability scanning and remediation is not to exceed one quarter.
However, NIST guidance states that scanning should occur on a weekly to monthly basis.
Additionally, NIST also states periodic scans should be performed using two different tools
because no scanner is able to detect all known vulnerabilities.

Additionally, although the memorandum references available resources to assist Agency
personnel in fulfilling their vulnerability scanning/remediation responsibilities, OEI made
disclaimer statements regarding licensing limitations and resource availability associated with
the resources/tools they were offering. We believe this disclaimer indicates a lack of
management commitment and support for establishing an effective vulnerability management
program within EPA.

Due to the datedness and vagueness of the memorandum and the lack of resources and necessary
licenses for the tools implied by the disclaimer, we added Recommendation 5 to the
“Recommendations” section below.

Recommendations

We recommend that the Director, Office of Technology Operations and Planning, within the
Office of Environmental Information:

       1. Create Plans of Action and Milestones (POA&Ms) for each unimplemented audit
          recommendation listed in Appendix B.

       2. Update EPA’s Management Audit Tracking System to show the status of each
          unimplemented audit recommendation listed in Appendix B.

       3. Provide EPA program and regional offices with an interim solution for vulnerability
          management. This should include establishing a centralized oversight process to


                                                 5
                                                                                          09-P-0240


          ensure that EPA program and regional offices (a) regularly test their computer
          networks for vulnerabilities, and (b) maintain files documenting the mitigation of
          detected vulnerabilities.

       4. Establish a workgroup of program and regional EPA IT staff (e.g., information
          security officers, system administrators, etc.) to solicit input on training needs and
          facilitate the rollout of the Agency-wide vulnerability management program.

       5. Issue an updated memorandum that:

          a. Reflects the current version of NIST Special Publication 800-53.
          b. Requires continuous scanning/remediation on at least a monthly basis.
          c. Requires continuous scanning/remediation be performed using two tools
             concurrently.
          d. Specifies what tools and resources OEI can actually provide to help the applicable
             personnel fulfill these responsibilities and what the applicable organizations will
             have to obtain on their own to perform these responsibilities.

Agency Comments and OIG Evaluation

Within its July 30, 2009, response to the draft report, OEI agreed with the findings and
recommendations. OEI did not provide an updated status on the recommendations identified in
Appendix B with their response. We added an additional column to the end of Appendix B in
which we included the information we obtained from the Automated Security Self-Evaluation
and Remediation Tracking (ASSERT) system as of August 6, 2009. However, OEI indicated it
would create POA&Ms for all of the report’s recommendations.

Appendix C contains the Agency’s complete response to our formal draft report.




                                                 6
                                                                                                                                               09-P-0240



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                     POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                         Planned
    Rec.    Page                                                                                                        Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1         Action Official               Date      Amount      Amount

     1        5     Create Plans of Action and Milestones (POA&Ms)             O            Director, Office of
                    for each unimplemented audit recommendation                        Technology Operations and
                    listed in Appendix B.                                              Planning, within the Office of
                                                                                        Environmental Information

     2        5     Update EPA’s Management Audit Tracking System              O            Director, Office of
                    to show the status of each unimplemented audit                     Technology Operations and
                    recommendation listed in Appendix B.                               Planning, within the Office of
                                                                                        Environmental Information

     3        5     Provide EPA program and regional offices with an           O            Director, Office of
                    interim solution for vulnerability management. This                Technology Operations and
                    should include establishing a centralized oversight                Planning, within the Office of
                    process to ensure that EPA program and regional                     Environmental Information
                    offices (a) regularly test their computer networks for
                    vulnerabilities, and (b) maintain files documenting
                    the mitigation of detected vulnerabilities.

     4        6     Establish a workgroup of program and regional              O            Director, Office of
                    EPA IT staff (e.g., information security officers,                 Technology Operations and
                    system administrators, etc.) to solicit input on                   Planning, within the Office of
                    training needs and facilitate the rollout of the                    Environmental Information
                    Agency-wide vulnerability management program.


     5        6    Issue an updated memorandum that:                           O            Director, Office of
                      a. Reflects the current version of NIST Special                  Technology Operations and
                         Publication 800-53.                                           Planning, within the Office of
                                                                                        Environmental Information
                      b. Requires continuous scanning/remediation
                         on at least a monthly basis.
                      c. Requires continuous scanning/remediation
                         be performed using two tools concurrently.
                      d. Specifies what tools and resources OEI can
                         actually provide to help the applicable
                         personnel fulfill these responsibilities and
                         what the applicable organizations will have to
                         obtain on their own to perform these
                         responsibilities.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   7
                                                                                  09-P-0240


                                                                                Appendix A

               Status of Agreed-to Recommendations

                                                                         Recommendations
                                                                            Completed
                                                        Recommendation
                  Report Title/Number                       Number        Yes        No
EPA’s Administration of Network Firewalls Needs              2-1                     X
Improvement                                                  3-1           X
(Report No. 2004-P-00013)                                    3-2                     X

Security Configuration and Monitoring of EPA’s Remote        2-1                     X
Access Methods Need Improvement                              2-2                     X
(Report No. 2005-P-00011)                                    2-3                     X
                                                             2-4                     X
                                                             2-5                     X
                                                             3-1           X
                                                             3-2           X

EPA Could Improve Processes for Managing Contractor          2-1                     X
Systems and Reporting Incidents                              2-2           X
(Report No. 2007-P-00007)
                                                             2-3           X
                                                             3-1           X
                                                             3-2           X
                                                             3-3           X
                                                             3-4           X


Audit of EPA’s Fiscal 2007 and 2006 (Restated)                12                     X
Consolidated Financial Statements                             13                     X
(Report No. 08-1-0032)                                        14           X
                                                              15                     X
                                                              16           X
                                                              17           X
                                                              18                     X
                                                              19           X
                                                              20           X
                                                              21           X

Number Completed/Not Completed                                             15        12
Percentage Completed/Not Completed                                        56%       44%
Source: OIG analysis




                                                  8
                                                                                                                              09-P-0240




                                                                                                                          Appendix B


                            Status of Unimplemented Recommendations
                                                                                  Requested Updated Status
                                                                                       from Agency –                ASSERT POA&M
                                                                                 Agency Provided No Updated         Information as of
   Report Title/Number         Recommendation               Action Needed         Status as of June 23, 2009         August 6, 2009

EPA’s Administration of     2-1 Develop and             Complete the             Planned implementation date     The POA&M in ASSERT
Network Firewalls Needs     implement a standard        implementation of        for both actions was August     indicates that this
Improvement                 configuration requirement   “proxy” servers for      2008. As of February 9, 2009,   Milestone Status is
(Report No. 2004-P-00013)   for adequately securing     remote access to         EPA updated the POA&M in        Completed. The OMB
                            workstations used to        firewall consoles.       the ASSERT system with a        Comment does not
                            remotely administer                                  new completion date of          appear to corroborate
                            network firewalls.          Management approval      March 31, 2009.                 the milestone status.
                                                        and issuance of the                                      The OMB Comment
                                                        procedure developed                                      states that the review
                                                        for granting access to                                   was completed and
                                                        firewall consoles.                                       modifications are being
                                                                                                                 made to access methods
                                                                                                                 based on outcome.


                            3-2 Modify the network      Implement regular        Planned implementation date     Current revised
                            vulnerability assessment    vulnerability scanning   was September 2008. As of       completion date is
                            methodology to include      of security              February 9, 2009, EPA updated   September 30, 2009.
                            scanning of all firewall    infrastructure.          the POA&M in the ASSERT
                            components (e.g.,                                    system with a new completion
                            workstations,                                        date of March 31, 2009.
                            management consoles,
                            and enforcement point
                            servers).




                                                                    9
                                                                                                                                    09-P-0240




                                                                                     Requested Updated Status
                                                                                          from Agency –                  ASSERT POA&M
                                                                                    Agency Provided No Updated           Information as of
   Report Title/Number          Recommendation               Action Needed           Status as of June 23, 2009           August 6, 2009

Security Configuration and   2-1 Establish processes     Put formal processes in    EPA management has not            Current revised
Monitoring of EPA’s Remote   and assign accountability   place and formally         provided a complete project       completion date is
Access Methods Need          for independently verify    assign accountability      plan that includes the actions    August 31, 2009.
Improvement                  and validate that           for independently          to be taken and the estimated
(Report No. 2005-P-00011)    Web-Mail and BlackBerry     verifying and validating   or planned milestone dates
                             servers comply with         that Web-Mail servers      for completing the actions
                             published EPA policies      comply with published      necessary to address the
                             and standards.              EPA policies and           recommendation.
                                                         standards.                 Implementation date depends
                                                                                    on the results of the ongoing
                                                                                    vulnerability management pilot
                                                                                    program. Based on a May
                                                                                    2008 interview with the
                                                                                    project’s technical lead, the
                                                                                    planned completion date for the
                                                                                    pilot program is March 2009.




                                                                    10
                                                                                                                                09-P-0240




                                                                                 Requested Updated Status
                                                                                      from Agency –                  ASSERT POA&M
                                                                                Agency Provided No Updated           Information as of
Report Title/Number      Recommendation                 Action Needed            Status as of June 23, 2009           August 6, 2009

                      2-2 Develop and               Implement an Agency-        EPA management has not            Current revised
                      implement a security-         wide vulnerability          provided a complete project       completion date is
                      monitoring program that       management program          plan that includes the actions    August 31, 2009.
                      includes testing all          that includes registering   to be taken and the estimated
                      servers, and require all      and testing all servers     or planned milestone dates
                      system administrators to      on a regular basis (in      for completing the actions
                      register their servers with   compliance with             necessary to address the
                      NTSD and participate in       Federal and Agency          recommendation.
                      the security-monitoring       Regulations, Policies,      Implementation date depends
                      program.                      Procedures, and             on the results of the ongoing
                                                    Standards),                 vulnerability management pilot
                                                    remediating the             program. Based on a May
                                                    vulnerabilities in a        2008 interview with the
                                                    timely manner.              project’s technical lead, the
                                                                                planned completion date for the
                                                                                pilot program is March 2009.




                                                                11
                                                                                                                          09-P-0240




                                                                           Requested Updated Status
                                                                                from Agency –                  ASSERT POA&M
                                                                          Agency Provided No Updated           Information as of
Report Title/Number      Recommendation              Action Needed         Status as of June 23, 2009           August 6, 2009

                      2-3 Expand the Agency’s    Implement processes      EPA management has not            Current revised
                      security-monitoring        and utilize tools to     provided a complete project       completion date is
                      program to include using   support Agency-wide      plan that includes the actions    August 31, 2009.
                      a variety of network       vulnerability scanning   to be taken and the estimated
                      vulnerability scanning     of critical network.     or planned milestone dates
                      tools to monitor                                    for completing the actions
                      registered servers.                                 necessary to address the
                                                                          recommendation.
                                                                          Implementation date depends
                                                                          on the results of the ongoing
                                                                          vulnerability management pilot
                                                                          program. Based on a May
                                                                          2008 interview with the
                                                                          project’s technical lead, the
                                                                          planned completion date for the
                                                                          pilot program is March 2009.




                                                            12
                                                                                                                            09-P-0240




                                                                             Requested Updated Status
                                                                                  from Agency –                  ASSERT POA&M
                                                                            Agency Provided No Updated           Information as of
Report Title/Number      Recommendation              Action Needed           Status as of June 23, 2009           August 6, 2009

                      2-4 Establish and          Establish and              EPA management has not            Current revised
                      implement a process to     implement a process to     provided a complete project       completion date is
                      ensure program and         ensure program and         plan that includes the actions    August 31, 2009.
                      regional offices conduct   regional offices conduct   to be taken and the estimated
                      regular security           regular security           or planned milestone dates
                      monitoring that includes   monitoring that includes   for completing the actions
                      vulnerability scanning.    vulnerability scanning.    necessary to address the
                                                                            recommendation.
                                                                            Implementation date depends
                                                                            on the results of the ongoing
                                                                            vulnerability management pilot
                                                                            program. Based on a May
                                                                            2008 interview with the
                                                                            project’s technical lead, the
                                                                            planned completion date for the
                                                                            pilot program is March 2009.


                      2-5 Develop and publish    Develop and publish        EPA has not provided a            EPA has not established
                      standards that define      standards that define      planned implementation date       a POA&M to address this
                      authorized open ports      authorized open ports      for the corrective actions        recommendation.
                      and services for the       and services for the       associated with this
                      Web-Mail and BlackBerry    Web-Mail and               recommendation.
                      servers’ Operating         BlackBerry servers’
                      System.                    Operating System and
                                                 require Web-mail and
                                                 BlackBerry servers to
                                                 be single-purpose
                                                 servers.




                                                            13
                                                                                                                                   09-P-0240




                                                                                  Requested Updated Status
                                                                                       from Agency –                   ASSERT POA&M
                                                                                 Agency Provided No Updated            Information as of
   Report Title/Number          Recommendation              Action Needed         Status as of June 23, 2009            August 6, 2009

EPA Could Improve            2-1 Develop and            Update Information       Planned implementation date        The POA&M in ASSERT
Processes for Managing       implement guidance that    Security Manual to       for both actions was               indicates that this
Contractor Systems and       EPA offices can use to     include procedures       September 18, 2008. As of          Milestone Status is
Reporting Incidents          identify contractor        EPA offices can use to   February 9, 2009, EPA updated      completed as of June 30,
(Report No. 2007-P-00007)    systems that contain EPA   identify contractor      the POA&M in the ASSERT            2009. The OMB
                             data.                      systems that contain     system with a new planned          Comment does not
                                                        EPA data.                completion date of April 10,       corroborate the
                                                                                 2009.                              milestone status. The
                                                                                                                    OMB Comment states
                                                                                                                    that contractual and
                                                                                                                    resource ability to review
                                                                                                                    draft documents have
                                                                                                                    delayed this activity.



Audit of EPA’s Fiscal 2007   12 Develop a               Conduct a test of the    As of the end of the Fiscal Year   The OIG will track EPA’s
and 2006 (Restated)          contingency plan for       two newly developed      2008 financial statement audit,    progress in completing
Consolidated Financial       BRAINS and mLINQS.         contingency plans.       EPA had not completed the          this recommendation
Statements                   The plans should be                                 corrective actions associated      during Fiscal Year
(Report No. 08-1-0032)       approved by                                         with this recommendation. The      2009’s annual financial
                             management and have                                 OIG will track EPA’s progress      statement audit.
                             documented annual                                   in completing this
                             reviews and testing.                                recommendation during the
                                                                                 annual financial statement
                                                                                 audit.




                                                                   14
                                                                                                                        09-P-0240




                                                                           Requested Updated Status
                                                                                from Agency –                ASSERT POA&M
                                                                          Agency Provided No Updated         Information as of
Report Title/Number      Recommendation               Action Needed        Status as of June 23, 2009         August 6, 2009

                      13 Develop a security        Finalize the           As of the end of the Fiscal     The OIG will track EPA’s
                      plan for BRAINS and          independent reviews    Year 2008 financial statement   progress in completing
                      mLINQS. This should          and updated security   audit, EPA had not completed    this recommendation
                      include having both          plans.                 the corrective actions          during Fiscal Year
                      applications comply with                            associated with this            2009’s annual financial
                      all the federal security                            recommendation. The OIG will    statement audit.
                      requirements specified by                           track EPA’s progress made in
                      the National Institute for                          completing this
                      Standards and                                       recommendation during the
                      Technology, including                               annual financial statement
                      completion of the security                          audit.
                      certification and
                      accreditation process and
                      the resulting formal
                      authorization to operate.


                      15 Enter Plans of Action     Update ASSERT as       As of the end of the Fiscal     The OIG will track EPA’s
                      and Milestones for all the   POA&Ms change.         Year 2008 financial statement   progress in completing
                      above noted deficiencies                            audit, EPA had not completed    this recommendation
                      in the Agency’s security                            the corrective actions          during Fiscal Year
                      weakness tracking                                   associated with this            2009’s annual financial
                      database (ASSERT).                                  recommendation. The OIG will    statement audit.
                                                                          track EPA’s progress in
                                                                          completing this
                                                                          recommendation during the
                                                                          annual financial statement
                                                                          audit.




                                                              15
                                                                                                                           09-P-0240




                                                                              Requested Updated Status
                                                                                   from Agency –                ASSERT POA&M
                                                                             Agency Provided No Updated         Information as of
Report Title/Number      Recommendation                Action Needed          Status as of June 23, 2009         August 6, 2009

                      18 Conduct and                Conduct and document     As of the end of the Fiscal     The OIG will track EPA’s
                      document an annual            an annual verification   Year 2008 financial statement   progress in completing
                      verification and validation   and validation of        audit, EPA had not completed    this recommendation
                      of implemented                implemented              the corrective actions          during the Fiscal Year
                      procedures to ensure          procedures to ensure     associated with this            2009 financial statement
                      controls are implemented      controls are             recommendation. Based on        audit.
                      as intended and are           implemented as           EPA Management’s October
                      effective.                    intended and are         2008 response, EPA set
                                                    effective.               December 31, 2008, as the
                                                                             implementation date for this
                                                                             recommendation.
                                                                             The OIG will track EPA’s
                                                                             progress in completing this
                                                                             recommendation during the
                                                                             annual financial statement
                                                                             audit.




                                                               16
                                                                                  09-P-0240


                                                                              Appendix C


         Agency Response to Draft Audit Report


                                       Jul 30, 2009



MEMORANDUM



SUBJECT:      Response to Draft Audit Report Project No. OMS-FY08-0001, Project Delays
              Prevent EPA from Implementing an Agency-Wide Vulnerability Management
              Program

FROM:         Vaughn Noga, Acting Director
              Office of Technology Operations and Planning
              and Acting Chief Technology Officer

TO:           Rudolph M. Brevard, Director
              Information Resources management Assessments
              Office of Inspector General

We have completed our review of the OIG Draft Audit Report Project No. OMS-FY08-0001,
Project Delays Prevent EPA from Implementing an Agency-Wide Vulnerability Management
Program and are providing the following comments to your recommendations:

   1. Recommendation #1 – Create Plans of Action and Milestones for each unimplemented
      audit recommendation listed in Appendix B.

       Concur in part – Many of the unimplemented audit recommendations have been assigned
       Plan of Action and Milestones (POA&Ms). For those recommendations that have not
       been assigned POA&Ms, OEI will ensure they have been created. Additionally, OEI will
       update its POA&Ms to reflect the milestones being identified in our current process
       improvement planning activities. Estimated date of completion for initial planning is
       August 31, 2009.

   2. Recommendation #2 – Update the EPA’s Management Audit Tracking System to show
      the status of each unimplemented audit recommendation listed in Appendix B.

       Concur – OEI will ensure EPA’s Management Audit Tracking System (MATS) is
       updated to show the status of each agreed upon, unimplemented audit recommendation
       under its purview with in the limitations of the system. OEI recommends that OIG
       continue to utilize the Automated System Security Evaluation and Remediation Tracking
       (ASSERT) system to monitor status as MATS will be updated with the ASSERT
       POA&M Task ID.


                                            17
                                                                                      09-P-0240




      3. Recommendation #3 – Provide EPA Program and Regional offices with an interim
         solution for vulnerability management. This should include establishing a
         centralized oversight process to ensure that EPA Program and Regional offices
         (1) regularly test their computer networks for vulnerabilities, and (2) maintain
         files documenting the mitigation of detected vulnerabilities.

         Concur – OEI will issue a memorandum to all Senior Information Officials, Information
         Management Officials and Information Security Officers reminding them of their
         responsibilities in accordance with the National Institute of Standards and Technology
         (NIST) Special Publication 800-53 to periodically scan systems for vulnerabilities on a
         continuous basis, implement appropriate remedial actions and what Agency and non-
         Agency tools available/recommended for use e.g. the Test and Vulnerability Assessment
         Lab (TVAL) and Nessus Vulnerability Scanner.

         Additional oversight and compliance will be conducted on a continuous basis via the
         Technology and Information Security Staff (TISS) Independent Verification and
         Validation (IV&V) activities.

      4. Establish a workgroup of program and regional EPA IT staff (e.g., information
         security officers, system administrators etc.) to solicit input on training needs and
         to facilitate the rollout of the Agency-wide vulnerability management program.

         Concur – OEI will charter and manage a Patch and Vulnerability Group (PVG) in
         accordance with NIST SP 800-40. This group will conduct a variety of functions in
         support of the EVMP to include, but not limited to, identifying and ensuring the
         implementation of role-based training requirements to appropriate Information
         Technology (IT) personnel.

Thank you for giving us the opportunity to provide responses on this report. If there are any
questions concerning the provided information please contact Johnny E. Davis Jr. at 202-566-
1025.

cc:      Johnny E. Davis Jr.
         Robin Gonzalez
         Bill Boone




                                               18
                                                                                09-P-0240


                                                                            Appendix D

                                    Distribution

Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Information Officer
Acting Director, Office of Technology Operations and Planning
Director, Technology and Information Security Staff
Director, National Computer Center
Chief, Security and Business Management Branch, National Computer Center
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Environmental Information
Acting Inspector General




                                             19
